     Department of Homeland Security




           FEMA Should Disallow $7.6 Million in 

       Public Assistance Grant Funds Awarded to the 

       Audubon Commission, New Orleans, Louisiana 





DD-13-05                                      January 2013

                     ~
                     •        OFHCE o.F INSPECTOR GENERAL
                                 Department ofIIomdand Security




                                     1/25/2013




MEMORANDUM FOR:               George A. Robinson
                              Regional Admi      ator, Regia
                                                               ent Agency

FROM:
                              Assista InspectorGen ral
                              Office of Emergency Management Oversight

SUBJECT:                      FEMA Should Disallow $7.6 Million in
                              Public Assistance Grant Funds Awarded to the
                              Audubon Commission, New Or/eons, Louisiono
                              FEMA Disaster Number 1603-0R-LA
                              Audit Report Number 00-13-05

We are currently auditing $12.3 million of Federal Emergency Management Agency (FEMA)
Public Assistance (PAl gr"n! fundS awarded to the Audubon Commission (Commission) in New
Orleans, louisiana (Public Assistance Identification Number 071-U76DM-OOJ. The Louisian~
Governor's Office of Homeland Security and Emergency Preparedness (GOHSEP), a FEMA
grantee, awarded these funds to the Commission for disaster recovery work resulting from
Hurricane Katrina, which occurred in August 2005.

This memorandum advises you oftwo issues related to $7.6 million ofthe Commission's
$12.3 million award that require your immediate attention. First, FEMA should disallow
$7.6 million because 19 approved projects are not the Commission's legal responsibility, which
Federal regulations require to be eligible for funding. Second, of the 29 projects in question,
FEMA should assess the ongoing need for 20 projects totaling $6.9 million (90.8 percent of the
questioned $7.6 million) because the Commission has not initiated work on these projects in
the 7 years since Hurricane Katrina. These conditions occurred because neither FEMA nor
GOHSEP fulfilled their responsibilities in managing funds awarded to the Commission.

We are conducting this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Our overall
objective is to determine whether the Commission accounted for and expended FEMA PA funds
according to Federal regulations and FEMA guidelines. At the conclusion of our audit, we plan
to issue our complete audit report, including any additional findings and recommendations.



   ww"'.Qi .... dh •. l';Ov                                                         lJU-1H15
                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


                                                       BACKGROUND 

 

The Commission is a component of the City of New Orleans (City) that the City authorizes to
administer various museum and park facilities. These facilities include the Audubon Park,
Audubon Zoo, Aquarium of the Americas, Woldenberg Riverfront Park, and several other
facilities. The Commission, through a City charter and property leases, has legal responsibility
for repairing some but not all of the facilities it administers for the City. For example, the
Commission also administers the Audubon Nature Center (Center) located in eastern New
Orleans. However, the Commission does not have legal responsibility for repairing damages to
facilities at the Center because the lease the City entered into with the Audubon Nature
Institute (Institute) assigned this responsibility to the Institute, not the Commission. 1

The Commission Does Not Have the Legal Responsibility To Repair the Damages Involving
More Than Half of the Award

The Commission does not have the legal responsibility to repair the damages Hurricane Katrina
caused to the Center. Of the $12.3 million FEMA approved for the Commission, $7.6 million
was for 29 projects at the Center. Because the Commission is not legally responsible for making
repairs to the Center, it is not the eligible applicant for these 29 projects. As a result, FEMA
should disallow the $7.6 million and determine whether these funds should be awarded to the
Institute, which is the entity legally responsible for making the repairs.

Federal regulation 44 CFR 206.223(a)(3) requires the subgrantee to be legally responsible for
the facility to be eligible for Federal disaster assistance. Also, the Public Assistance Guide
(FEMA 322, October 1999, p. 25) states that an eligible applicant must be legally responsible for
the damaged facility at the time of the disaster. If the applicant is the lessee (tenant), repairs to
that facility are not eligible unless the lease specifically states that the lessee is responsible for
the repairs. The guide further states that, in the absence of a written agreement or lease, the
owner of the property, not the occupant, is assumed to be responsible for the repairs.

The City owns the land on which the Center is located and leases it to the Institute, not the
Commission. We obtained copies of the lease in effect at the time of the disaster from
Commission officials.2 It did not contain any evidence that the parties to the lease (the City and
the Institute) have changed since May 1994. Further, according to the lease agreement,
damages to the facilities at the Center are the responsibility of the lessee. Based on the lease
agreement, the Institute, as lessee, is responsible for repairing damages to Center facilities.



1
  The Audubon Nature Institute is a private-nonprofit organization that operates various museums and parks in the New
Orleans area on behalf of the Commission through a management agreement.
2
  In December 1976, the City and the Louisiana Nature Center, Inc., executed the original land lease for the construction of a
Nature Center facility. However, in May 1994, the parties substituted the Institute as the lessee on this lease as a condition of a
Society for Environmental Education merger with the Institute.



     www.oig.dhs.gov                                            2                                                 DD-13-05
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

We requested copies of any other legal documentation that would indicate a transfer of the
lease responsibility from the Institute to the Commission. Commission officials did not provide
documentation identifying the Commission as the lessee and, therefore, the entity legally
responsible for repairing Hurricane Katrina damages at the Center facilities. However,
Commission officials provided an opinion letter from their attorney that stated why they
believe that the Center facilities are the Commission’s legal responsibility. However, because
the opinion did not provide evidence that the City had transferred the Center lease to the
Commission, it did not provide a credible argument that would exempt the Commission or the
Center from 44 CFR 206.223(a)(3). As stated previously, this Federal regulation states that, to
be eligible for Federal disaster assistance, the subgrantee must be legally responsible for the
facility. However, according to Commission officials, neither FEMA nor GOHSEP ever requested
copies of the lease agreement or other documents to determine legal responsibility.

An additional eligibility issue exists because FEMA authorized the Commission to construct a
$357,897 alternate project (Project 19089, the Parakeet Aviary and Ghost of the Wetlands
exhibit) at the Aquarium of the Americas that FEMA funded by deobligating funds from a
Center project (Project 16292). This alternate project is the legal responsibility of the Institute
and not the Commission. Thus, FEMA funded the Commission’s alternate project with money
from a project related to the Center, which is the legal responsibility of another applicant.

Because the Commission is not legally responsible for the Center’s damages, we question
$7.6 million for work that was related to or funded from projects related to the Center.
Exhibit A summarizes our questioned costs and relevant information about the 29 projects.

No Work Started on 20 Projects 7 Years After Hurricane Katrina

Neither the Commission nor the Institute initiated work on 20 of the 29 aforementioned
projects. The 20 projects total $6.9 million, or 90.8 percent of the $7.6 million we questioned
for the 29 projects related to the Center. Quarterly progress reports for the past several years
show that the Commission repeatedly asked GOHSEP to provide project extensions on these
20 projects. Grant files also show that GOHSEP forwarded the extension requests to FEMA, and
FEMA approved them, with the latest extension ending on August 31, 2012. In their requests
for project extensions, Commission officials stated that they delayed the projects because the
City mayor’s office placed a “hold” on work at the Center. However, in their requests,
Commission officials did not provide any documentation to support this assertion. Rather, they
stated in the extension letters that the City had verbally instructed them to delay work on the
20 projects.

After the Commission submitted the last extension request, the City deputy mayor issued a
letter stating that the City was committed to the reconstruction of the Center. Regardless,
7 years have passed since Hurricane Katrina. Because this much time has elapsed, we question
the real need for these projects. FEMA and GOHSEP should review these projects and work


   www.oig.dhs.gov                               3                                      DD-13-05
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

with the eligible applicant to assess their ongoing need. For projects that cannot be started
within 6 months, FEMA should deobligate the corresponding Federal funds and put them to
better use.

FEMA and GOHSEP Need To Improve Grant Management

With respect to the two issues this report identifies, neither FEMA nor GOHSEP fulfilled their
responsibilities in managing funds awarded to the Commission. Regarding the issue of legal
responsibility, FEMA officials said that, during project development, they rely on the
subgrantee’s word to determine ownership. GOHSEP officials said that they rely on FEMA to
tell them whether a subgrantee is the owner of or has legal responsibility for repairing a facility.
The State Administrative Plan in effect at the time of the disaster specifically states that
GOHSEP and FEMA “will jointly determine the eligibility of all applicants.” Neither FEMA nor
GOHSEP fulfilled their responsibilities in this respect. Relying on the subgrantee’s word, rather
than legal documentation, to determine ownership provides no assurance that Federal funds
are awarded to an eligible entity. FEMA officials acknowledged that a question of legal
responsibility exists regarding the Center and said that they are still reviewing the issue and
working with the Commission and GOHSEP to resolve it.

Regarding the 20 projects not started, FEMA officials said that they are reviewing project status
issues with the applicant. GOHSEP officials said that they are working with both the applicant
and FEMA to help address project status. However, both GOHSEP and FEMA have been
continually approving the Commission’s project extension requests for several years without
adequate justification.

According to 44 CFR 206.204, the time limitation for completing permanent work is 18 months.
Based on extenuating circumstances or unusual project requirements beyond the control of the
subgrantee, the grantee may extend the deadlines for an additional 30 months, on a project-by-
project basis for permanent work. The grantee must submit requests for time extensions
beyond its authority to the FEMA Regional Administrator and must include (1) the dates and
provisions of all previous time extensions on the project and (2) a detailed justification for the
delay and a projected completion date. The grantee’s requests for time extensions included
the required information. However, the Commission based its justification on verbal comments
from the City. There is no evidence that either FEMA or GOHSEP took any steps to verify these
assertions or provide the applicant with any assistance in resolving the delays. The Regional
Administrator’s approval letter should include the approved completion date and any other
requirements that the Regional Administrator determines necessary to ensure that the new
completion date is met. No other requirements were included in the approved extension
requests. If the Regional Administrator denies the time extension request, the grantee may,
upon completion of the project, be reimbursed for eligible project costs incurred only up to the
latest approved completion date. If the project is not completed, no Federal funding will be
provided for that project.


   www.oig.dhs.gov                               4                                     DD-13-05
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


As stated previously, the latest FEMA-approved extension ended on August 31, 2012. Because
7 years have passed since Hurricane Katrina, FEMA should not approve another extension
request and should deny all funding for the 20 projects unless the Commission and GOHSEP can
provide an adequate, reasonable justification for the delays and an action plan to complete the
projects within 18 months.


                                     RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region VI:

Recommendation #1: Disallow $7,552,785 of funds awarded to the Audubon Commission for
Hurricane Katrina damages on 29 projects related to or funded from projects related to
Audubon Nature Center facilities for which the Audubon Commission is not legally responsible
(see exhibit A).

Recommendation #2: Discontinue obligation of additional Federal funds related to Audubon
Nature Center facilities until FEMA resolves all issues related to the determination of legal
responsibility for repairing the damages caused by Hurricane Katrina.

Recommendation #3: Require GOHSEP to recover all Federal funds paid to the Commission for
Audubon Nature Center projects if, within 6 months, FEMA and GOHSEP cannot establish which
entity has legal responsibility to repair the damages caused by Hurricane Katrina.

Recommendation #4: Work with GOHSEP to review the 20 Audubon Nature Center projects
not yet started, assess the need for those projects, and deobligate the funding for projects that
are no longer needed.

Recommendation #5: For any of the 20 projects not yet started that are still needed, require
the legally responsible applicant to start work on the projects within 6 months and complete
the projects within 18 months.




   www.oig.dhs.gov                              5                                    DD-13-05
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP 


We discussed the results of our audit with Commission officials during our audit and included
their comments in this report, as appropriate. We also provided a draft report in advance to
FEMA, GOHSEP, and Commission officials and discussed it at exit conferences held with FEMA
officials on November 9, 2012, and with GOHSEP and Commission officials on November 29,
2012. FEMA, GOHSEP, and Commission officials generally agreed with our findings and
recommendations.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive and evaluate your response, we will consider the
recommendations to be open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report were Tonda Hadley, Director; Paige Hamrick, Audit Manager
and John Polledo, Auditor-in-Charge.

Please call me with any questions at (202) 254-4100, or your staff may contact Tonda Hadley,
Director, Central Regional Office, at (214) 436-5200.




   www.oig.dhs.gov                              6                                   DD-13-05
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


                                                                                EXHIBIT A

Schedule of Audubon Nature Center Projects Where Legal Responsibility Is Questioned

                  Audubon Commission, New Orleans, Louisiana

                       FEMA Disaster Number 1603-DR-LA 


                                                Gross                      Net Project
                                               Project      Insurance      Obligated
Project                  Description           Amount       Reduction       Amount
Projects Not Started -
 16643 Interpretive Center                     $1,985,206   $  (33,197)    $1,952,009
 14609 Science Building                           886,367             0       886,367
 13800 Education Building                         762,609             0       762,609
 16324 Astronomy Center                           750,755             0       750,755
 14285 Interpretive Center Contents               748,753     (288,300)       460,453
 13909 Boardwalk                                  709,182             0       709,182
 13678 Botany Center                              341,401     (101,240)       240,161
 14022 Planetarium Projector                      269,000             0       269,000
 19195 Main Center Decking                        259,348             0       259,348
 13728 Maintenance Building                       253,910     (180,046)        73,864
 14203 Planetarium Contents                       187,423             0       187,423
 13500 Gift Shop                                  170,878     (111,221)        59,657
 13931 Maintenance Building Contents               78,242      (38,121)        40,121
 13938 Admin. Building Contents                    73,489      (35,744)        37,745
 14016 Science Building Contents                   65,986             0        65,986
 16292 Admin. Building Demolition                  51,765             0        51,765
 13907 Education Building Contents                 21,000             0        21,000
 13677 Gift Shop Contents                          20,151       (8,076)        12,075
 13861 Botany Center Contents                      11,747       (4,873)         6,874
 14214 Recreation Facilities                       10,054             0        10,054
Total of Projects Not Started                  $7,657,266   $ (800,818)    $6,856,448
Projects Completed -
 19089 Parakeet Park & Wetlands Exhibits       $ 570,284     $ (212,387)   $ 357,897
  3716     Perimeter Fence                        144,620              0      144,620
 14265 Emergency Protection                        63,779              0       63,779
 13552 Information Technology Equipment            62,560              0       62,560
 9906      Debris Removal                          54,120              0       54,120
 15080 Emergency Protective Measures               28,342       (28,342)            0
 13685 Emergency Protective Measures                5,601              0        5,601
 13506 Vehicle Replacement                          4,790              0        4,790
 17752 Perimeter Fence Repair                       2,970              0        2,970
Total of Projects Completed                    $ 937,066    $ (240,729)    $ 696,337
Total of Audubon Nature Center Projects        $8,594,332   $(1,041,547)   $7,552,785




www.oig.dhs.gov                            7                                  DD-13-05
                                OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                                                                                  EXHIBIT B 

                                 Report Distribution List

                        Audubon Commission, New Orleans, Louisiana

                            FEMA Disaster Number 1603-DR-LA


Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Interim Director, FEMA Louisiana Recovery Office
Audit Liaison, FEMA Louisiana Recovery Office
Audit Liaison, FEMA Region VI
Audit Liaison, FEMA (Job Code G-12-034)

Grantee
Director, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
Audit Liaison, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness

State
Louisiana Legislative Auditor

Subgrantee
Senior Executive Vice President, Audubon Commission

Congress
Congressional Oversight and Appropriations Committees, as appropriate




   www.oig.dhs.gov                             8                                DD-13-05
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
